20-7633
IN THE
SUPREME COURT OF THE UNITED STATES

supreme Court, U S~
FILED

MAR 2 7 2021

Aonfl Q. ffl-Popd

office

OF THE Pi cD„

— PETITIONER

(Your Name)

<2>ecrdarLj I
\-\r)(

VS.

cP Cn( «chcf& respondent(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

,
f\ie

%,

_______ e \Momerc\

(NAME OF COURT THAT LAST RULED ON MERTTS OF YOUR CASEjDfeVf^fj''

F\or‘da
PETITION FOR WRIT OF CERTIORARI

Am 4.fti-krrl Sgogia.
(Your Name)

ptcx-

35

(Address)

(City, State, Zip Code)

B

TSS»

(Phone Number)

rs

/

9'4

"

f

.

J 4.
U

;
i

;

r

i.

%'
/
;
/

• ;:-Vr-V5

' >.*» ■

.'V
/
;K/
/
;;

<
/
/

*r

A. QUESTIONS PRESENTED

Whether the court of appeals improperly denied the Petitioner a
certificate of appealability under 28 U.S.C. §2253(c) on his claim that
his counsel rendered ineffective assistance of counsel by failing to
advise defendant of the risks associated with consolidation, which
deprived defendant the right to give informed consent regarding
consolidation?

Whether a criminal defendant is denied his right to effective
assistance of counsel when a defendant’s consent to a course of
action against prevailing state and federal law is obtained where
counsel acknowledges failing to advise of the risks?

B.

PARTIES INVOLVED

The parties involved are identified in the style of the case.

2

A. QUESTION PRESENTED FOR REVIEW

2

B. PARTIES INVOLVED

2

C. TABLE OF CONTENTS AND TABLE OF AUTHORITIES
3
4

1. Table of Contents
2. Table of Cited Authorities
D.

CITATION TO OPINION BELOW

6

E. BASIS FOR JURISDICTION

6

F. CONSTITUTIONAL PROVISION INVOLVED

5

G. STATEMENT OF THE CASE

6

H. REASON FOR GRANTING THE WRIT

9

The question presented is important

CONCLUSION
APPENDIX

l

C.TABLE OF CONTENTS AND CITED AUTHORITIES
C1:

3/2/12

TABLE OF CONTENTS

APPENDIX

Excerpt of Motion for Post Conviction Relief 3.850
Pages 1-7 re: current issue

1/28/13

Order Denying in part and granting evidentiary hearing

10/20/14

Excerpt of Initial Brief of Appellant First DCA

B

Pages 1-10 re: current issue
6/15/15

Opinion (reversed/remanded for further proceedings)

11/24/15

Excerpt of Evidentiary Hearing

A

Pages 1,9,27,28 re: current issue
2/1/16

Order Denying Motion for Post Conviction after Evidentiary

5/18/17

Petition 2254 for Writ of Habeas Corpus

5/23/17

Petition for Writ of Certiorari

8/13/20

Order denying 2254

9/29/20

Application for Certificate of Appealability (COA)

12/28/20

Order denying Certificate of Appealability (COA)

1/13/21

Motion for Reconsideration (COA)

1/19/21

Order denying Reconsideration

B

C

3

C

C

C2:

TABLE OF CITED AUTHORITIES

Alford v. State, Fla. 1st DCA 2011

7

Alford v. State, 166 So.3d 219 Fla. App. 2015

7

Alford v State, 222 So.3d 1202 Fla. App. 2017

8

Strickland v Washington, 466 U.S. 668 (1984)

11

Roark v State, 620 So. 2d 237 239 (Fla. 1st DCA 1993)

1

McMann v Richardson, 397 U.S. 759, 771, n.14 (1970)

5

Miller-El v Cockrell, 537 U.S. 322, 336, 123 S. Ct. 1029

11

1039 (2003)

Statutes
28 U.S.C. § 2253(c)(2)

11

28 U.S.C. § 2253(c)(3)

11

28 U.S.C. § 2254(d)

11

28 U.S.C. § 2254.

8, 11

4

I

Other Authority
United States Constitutional Amendments 5th, 6th, and 14th.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment provides that no person shall be held to answer
for a capital, or otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the land or naval
forces, or in the Militia when in actual service in time of War or public
danger; or shall any person be subject for the same offense to be twice put
in jeopardy of life or limb; nor shall be compelled in any criminal case to be
a witness against himself nor be deprived of life, liberty, or property, without
due process of law; nor shall private property be taken for public use,
without just compensation.
The Sixth Amendment provides that “[i]n all criminal prosecutions, the
accused shall enjoy the right to...have the Assistance of Counsel for his
defense". “The right to counsel is the right to the effective assistance of
counsel”. McMann v Richardson, 397 U.S.759, 771, n.14 (1970)
The Fourteenth Amendment provides that no state shall make or
enforce any law which shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

5

The Petitioner, SAM S. ALFORD, requests the court to issue a writ of
certiorari to review the judgement/order of the Eleventh Circuit Court of
Appeals entered in this case on December 28, 2020
(reconsideration/rehearing denied on January 19, 2020).
D. CITATION TO ORDER BELOW
The order below was not reported.

E. BASIS FOR JURISDICTION
The jurisdiction of the Court is revoked pursuant to 28 U.S.C. §1254
to review the final judgment of the Eleventh Circuit Court of Appeals.

F. CONSTITUTIONAL PROVISION INVOLVED
The Fifth, Sixth and Fourteenth. Attached

G. STATEMENT OF THE CASE
In 2007, Mr. Alford was charged with three counts of sexual battery
and two counts of lewd or lascivious molestation. He was also
charged in a separate case with one count each of sexual battery and
lewd or lascivious molestation. The two young women making the
allegations were sisters, D.F. and E.F. The case proceeded to trial in
2008. Mr. Alford’s theory of defense was that the entirety of the

6

allegations w made up by Ms. Dunn, (D.F.’s and E.F.’s mother) in
retaliation when she found out he was seeing someone else. At the
conclusion of the trial, the jury found Mr. Alford guilty. The state trial
court sentenced Mr. Alford to life imprisonment. On direct appeal, the
Florida First District Court of Appeal, per curium affirmed Mr. Alford’s
convictions and sentences. See Alford v. State, (Fla. 1st DCA 2011).
Mr. Alford subsequently filed a state postconviction motion pursuant to
Florida Rule of Criminal Procedure 3.850. The postconviction court
summarily denied some claims and ordered an evidentiary hearing.
After the evidentiary hearing the state postconviction court denied Mr.
Alford’s rule 3.850 motion. Mr. Alford appealed the denial and the
Florida First District Court of Appeals reversed one of the summarily
denied claims of the rule 3.850 motion. See Alford v. State, 166 So.3d
219 (Fla. App. 2015).
The State Appellate Court’s findings were “This court has held that
consolidation is not proper in molestation cases where the offenses
occurred at different times and places and involved different victims”.
Roark v State, 620 So. 2d 237 239 (Fla.1st DCA 1993). Furthermore
“Contrary to the trial court’s conclusion, the record does not conclusively
refute appellant’s claim insofar as he alleges defense counsel failed to
7

advise him of the dangers posed by consolidating the cases. Moreover
this court has rejected the position that misjoinder would constitute
harmless error in all familial sexual battery cases where the misjoined
offenses would be admissible as collateral crime evidence”.
The State Appellate Court remanded the case for an evidentiary hearing
addressing whether there was a strategic benefit to consolidation and
whether Mr. Alford was warned of the serious risks associated with
consolidation.
Pursuant to the Florida District Court’s order, an evidentiary hearing was
held on the claim. After testimony from both of Mr. Alford’s attorneys, the
state postconviction court denied Mr. Alford’s claim although Mr. Alford’s
attorney testified that they did not advise Mr. Alford "in the terms of what
the risks were”.

Mr. Alford appealed the state postconviction court’s ruling,

which was affirmed without an opinion. Alford v. State, 222 So.3d 1202
(Fla. App. 2017) Thereafter, Mr. Alford timely filed a petition pursuant to 28
U.S.C. § 2254.

Mr. Alford raised several claims in the petition - one of

which is the focus of the instant pleading: (1) Defense counsel provided
ineffective assistance by moving to consolidate cases unrelated in time,
place, or victim, and failed to advise Mr. Alford of the risks associated with
consolidation of the cases. The district court denied Mr. Alford’s §
8

2254petition.

Mr. Alford filed a Writ of Certiorari and was denied. Mr.

Alford timely filed his Application for Certificate of Appealability and
subsequently a reconsideration of Certificate of Appealability in the
Eleventh Circuit. On January 19, 2021

Mr. Alford was denied a

reconsideration of Certificate of Appealability.

H. REASON FOR GRANTING THE WRIT
The question presented is important.
The petitioner contends that the Eleventh Circuit erred by denying him a
certificate of appealability on his ineffective assistance of counsel claim.
As explained below, the Petitioner has made “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c) (2).
On remand, the Florida First District Court of Appeals held that it would be
improper to consolidate defendant’s cases stating, “Contrary to the trial
court’s conclusion, the record does not conclusively refute appellant’s claim
insofar as he alleges defense counsel failed to advise him of the dangers
posed by consolidating the cases”.

Furthermore, “In this case, absent

consent of appellant, consolidation would not be warranted where the
offenses occurred at different times and places and involved different
9

(although related) victims”. “Because appellant’s claim that defense
counsel was ineffective for moving to consolidate the cases without
advising him of the risks is not conclusively refuted by the record, the trial
court’s summary denial of this claim is reversed and remanded for an
evidentiary hearing”.

(Appendix A attached) This ruling holds that it was

the defendants consent, obtained by counsel, that allowed consolidation of
the cases.
Defendant’s consent was sought after counsel advised of the strategic
benefits without advising of the risks. Counsel’s failure to advise defendant
of the risks, deprived defendant of the right to give an informed consent.
During a motion hearing on the issue, trial counsel acknowledged that
defendant was not advised of the risks associated with consolidation
stating “I don’t know that we put it in the terms of what the risks were”.

“I

think it was more so in the sense of the advantages that we felt were there
to try the cases together”,

(excerpt attached)

In their order, the Florida First District Court of Appeals ruled that absent
consent of appellant, consolidation would not be warranted if defendant
was not advised of the risks associated with consolidation.

Counsel

acknowledged and testified that defendant was not advised of the risks
associated with consolidation. Defendant has demonstrated a substantial
10

showing of a denial of a constitutional right and should be afforded the right
to relief deemed proper by this court. A defendant’s consent to a course of
action deemed improper in a plethora of state and federal law cannot be
considered valid, especially where the risks of such a controversial decision
are not clearly informed.
To obtain postconviction relief on the basis of ineffective assistance of
counsel, a defendant must show (1) that counsel’s performance was
deficient and (2) that the deficient performance prejudices the defense.
Strickland v Washington, 466 U.S. 668 (1984).
Accordingly, for all of the reasons set forth above, Mr. Alford submits
he has made “a substantial showing of the denial of a constitutional right”
28 U.S.C. § 2253(c)(2) and is entitled to relief pursuant to 28 U.S.C. §
2254(d). 28 U.S.C. § 2253(c)(2) provides that a COA may issue under
paragraph (1) only if the applicant has made a substantial showing of the
denial of a constitutional right.

Finally, 28 U.S.C. § 2253(c)(3) provides

that the COA under paragraph (1) shall indicate which specific issue or
issues satisfy the showing required by paragraph (2).

In Miller-El v

Cockrell, 537 U.S. 322, 336, 123 S. Ct. 1029, 1039 (2003), the Supreme
Court observed that a COA will issue only if the requirements of § 2253
have been satisfied. § 2253(c) permits the issuance of a COA only where
li

a petitioner has made a substantial showing of the denial of a constitutional
right. The Supreme Court in Miller-El recognized that determining whether
a COA should be issued “requires an overview of the claims in the habeas
petition and a general assessment of their merits.” Petitioner has
demonstrated that counsel’s performance was deficient. Furthermore,
advising consolidation without informing defendant of the risks associated
thereof was prejudicial to defendant’s case.

APPENDIX
APPENDIX A

Decision of State Court of Appeals

APPENDIX B

Decision of State Trial Court

APPENDIX C

Decision of Federal Court

12

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
jft
Date:

fd/Micbi 9M i
/■>

